<html>
<title> - JOINT OVERSIGHT HEARING ON MANAGING COSTS AND MITIGATING DELAYS IN THE BUILDING OF SOCIAL SECURITY'S NEW NATIONAL COMPUTER CENTER</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                       JOINT OVERSIGHT HEARING ON
                  MANAGING COSTS AND MITIGATING DELAYS
                  IN THE BUILDING OF SOCIAL SECURITY'S
                      NEW NATIONAL COMPUTER CENTER

=======================================================================

                             JOINT HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS

                                and the

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 of the

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                 of the

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2011

                               __________

                           Serial No. 112-SS1

                               __________

         Printed for the use of the Committee on Ways and Means




                  U.S. GOVERNMENT PRINTING OFFICE
70-872                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e3f4ebc4e7f1f7f0ece1e8f4aae7ebe9aa">[email&#160;protected]</a>  

                      COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                      SAM JOHNSON, Texas, Chairman

KEVIN BRADY, Texas                   XAVIER BECERRA, California
PAT TIBERI, Ohio                     LLOYD DOGGETT, Texas
AARON SCHOCK, Illinois               SHELLEY BERKLEY, Nevada
ERIK PAULSEN, Minnesota              FORTNEY PETE STARK, California
RICK BERG, North Dakota
ADRIAN SMITH, Nebraska

                                 ______

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

 SUBCOMMITTEE ON ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY 
                               MANAGEMENT

                   JEFF DENHAM, California, Chairman

TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
RICK CRAWFORD, Arkansas              Columbia, Ranking Member
RANDY HULTGREN, Illinois             HEATH SHULER, North Carolina
LOU BARLETTA, Pennsylvania           MICHAEL H. MICHAUD, Maine
BOB GIBBS, Ohio                      RUSS CARNAHAN, Missouri
PATRICK MEEHAN, Pennsylvania         TIMOTHY J. WALZ, Minnesota
RICHARD HANNA, New York              DONNA F. EDWARDS, Maryland
JOHN L. MICA, Florida                BOB FILNER, California
                                     NICK J. RAHALL, II, West Virginia


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of February 11, 2011, announcing the hearing............     2

                               WITNESSES

The Honorable Patrick P. O'Carroll Jr., Inspector General, Social 
  Security Administration........................................     8
David Foley, Deputy Commissioner of the Public Buildings Service, 
  U.S. General Services Administration...........................    17
Kelly Croft, Deputy Commissioner, Social Security Administration.    23

                        QUESTIONS FOR THE RECORD

David Foley......................................................    55
Kelly Kroft......................................................    58
Patrick P. O'Carroll.............................................    73


                       JOINT OVERSIGHT HEARING ON
                  MANAGING COSTS AND MITIGATING DELAYS
                  IN THE BUILDING OF SOCIAL SECURITY'S
                      NEW NATIONAL COMPUTER CENTER

                              ----------                              


                       FRIDAY, FEBRUARY 11, 2011

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 1100, Longworth House Office Building, the Honorable Sam 
Johnson [Chairman of the Subcommittee on Social Security, 
Committee on Ways and Means] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                  Chairman Johnson and Chairman Denham

                 Announce a Joint Oversight Hearing on

                  Managing Costs and Mitigating Delays

                  in the Building of Social Security's

                      New National Computer Center

February 4, 2011

    U.S. Congressman Sam Johnson (R-TX), Chairman of the House 
Committee on Ways and Means Subcommittee on Social Security, and U.S. 
Congressman Jeff Denham (R-CA), Chairman of the House Committee on 
Transportation and Infrastructure Subcommittee on Economic Development, 
Public Buildings, and Emergency Management, announced today that the 
Subcommittees will hold a joint oversight hearing on managing costs and 
mitigating delays in the building of the Social Security 
Administration's (SSA's) new National Computer Center (NCC). The 
hearing will take place on Friday, February 11, 2011 in 1100 Longworth 
House Office Building, beginning at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing. A list of invited 
witnesses will follow.
      

BACKGROUND:

      
    Information technology (IT) is the foundation of the SSA's ability 
to serve the public. Over the past decade, the SSA has migrated 95 
percent of its workloads from a paper-based system to an electronic 
processing system. This year the IT infrastructure supports the payment 
of over $700 billion in benefits to 56 million people, completing an 
average of over 75 million business transactions per day. Along with 
maintaining earnings, benefit, and demographic information for most 
Americans, the SSA's computers also house the electronic medical 
records of millions who have filed disability claims. In addition, over 
1 billion data files are exchanged annually between the SSA, Federal, 
State, and local government agencies and businesses in order to 
administer Social Security benefits and other programs.
      
    Until January 2009, the SSA ran its nationwide computer operations 
from its Baltimore-based 30-year old NCC. Since then, a second state-
of-the-art support center now runs approximately 35 percent of all 
workloads and is able to recover all critical systems and restore 
services within 4 days should a catastrophic failure of the NCC occur.
      
    As time passes, the risk of a failure at the NCC is increasing due 
to its aging electrical and mechanical infrastructure. Should an NCC 
failure occur, lengthy service disruptions would severely affect 
service to the American public and cost taxpayers millions of dollars.
      
    In February 2009, the American Recovery and Reinvestment Act of 
2009 provided $500 million for the SSA to replace the NCC, the single 
largest building project funded under the Act. The General Services 
Administration (GSA) and the SSA are managing the development and 
construction of the new project, including the development of 
requirements for the new center and site selection. The project remains 
on budget but the projected date for complete commissioning of the new 
facility has been delayed one year to January 2015.
      
    In announcing the hearing, Chairman Sam Johnson (R-TX) stated, 
``Information technology is the most important element in driving 
Social Security to deliver 21st century customer service. Taxpayers are 
investing in a $500 million upgrade and they will not tolerate cost 
overruns or further delays in another failed stimulus project. Neither 
will I.''
      
    ``We need to hold the General Services Administration accountable 
for this half billion dollar project,'' Chairman Jeff Denham (R-CA) 
stated. ``The agency needs to use the resources they were provided, 
stay on budget and get this project back on schedule.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on the progress made by the SSA and the GSA 
to replace the NCC, including progress to date and reasons for project 
delays. The Subcommittees will also assess how the SSA and the GSA plan 
to avoid further delays and stay within budget. Finally, the 
Subcommittees will examine the SSA's preparedness should an NCC failure 
occur.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Friday, March 4, 2011. Finally, please note 
that due to the change in House mail policy, the U.S. Capitol Police 
will refuse sealed-package deliveries to all House Office Buildings. 
For questions, or if you encounter technical problems, please call 
(202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman JOHNSON. Good morning. Welcome to the first 
hearing of the Ways and Means Subcommittee on Social Security 
in the 112th Congress. I especially want to welcome the new 
members of our subcommittee and our colleagues from the 
Committee on Transportation and Infrastructure, the 
Subcommittee on Economic Development, Public Buildings, and 
Emergency Management, especially the new chairman, Jeff Denham, 
who is sitting right here.
    I also want to say how much I look forward to working with 
our new subcommittee ranking member and my good friend, Xavier 
Becerra. Thank you for being here.
    As our nation ages, more Americans are depending on Social 
Security benefits and the services they paid for through their 
hard-earned wages. To deliver those benefits and services, 
Social Security needs technology that it can count on.
    Because I take technology needs of Social Security very 
seriously, last year I toured the National Computer Center in 
Baltimore, Social Security's technological nerve center. This 
center allows the agency to process applications, pay benefits, 
and store secured data on most U.S. workers. Two weeks ago I 
also visited the second support center in North Carolina. Yet, 
as we know, Social Security's 30-year-old National Computer 
Center is past its prime, and that is why the Congress 
authorized $500 million of taxpayer funds to build a new state-
of-the-art data center.
    Just over a year ago, our subcommittees held a similar 
joint hearing to check in on Social Security's and the General 
Services Administration's progress. Back then we couldn't get 
good answers--I hope we can today--as to why they decided to 
locate the new center away from Social Security's headquarters 
in Baltimore, which I found out just this morning that they 
have over a couple hundred acres up there. So I don't know 
still today why we couldn't have found a place there.
    Now the project is already delayed a year, and that is 
before a single shovel has hit the ground. All the while, the 
more time passes, the higher the risk of the National Computer 
Center failing.
    If any of you have ever been up there, it was a firetrap. 
And I think people fail to realize that if that place burned 
down, we would lose all our onsite Social Security records. 
That is why we built the second center down in North Carolina, 
which still hasn't got the capability to come up immediately.
    While progress has been made, it would still take four days 
to restore critical operations, and that is not good enough, 
and Social Security knows it. Americans want, need, and deserve 
better, and today we will learn more about the plans to 
improve.
    Taxpayers are investing in a $500 million infrastructure 
upgrade. The last thing they deserve is another failed stimulus 
project due to further delays or future cost overruns. Social 
Security owes it to the American taxpayer to make good on this 
investment.
    Today we need to find out whether GSA and Social Security 
are doing everything they know how to do to make this project 
right and on time, if not ahead of time. This project should 
have started yesterday. And I want to thank all the witnesses 
in front of me for joining us today and presenting their expert 
testimony.
    I would like to at this time ask Ranking Member Becerra, 
would you care to make a statement, sir? You are recognized.
    Mr. BECERRA. Thank you, Mr. Chairman.
    This is a timely topic for our first hearing. I appreciate, 
Mr. Chairman, that you are continuing the tradition of this 
subcommittee of conducting bipartisan oversight of the Social 
Security Administration (SSA) in the interests of the American 
people.
    The new data center that SSA is constructing in conjunction 
with the GSA, the General Services Administration, is vitally 
important to the continued operation of the Social Security 
Administration. Today, 54 million people rely on SSA to keep 
America's promises to all Americans and to deliver each month 
the money they have earned and expect from their Social 
Security system. They have contributed for years into the 
system from their own paychecks.
    In addition, 160 million workers rely on SSA to keep 
accurate records of their earnings so, in the future, they will 
receive the full benefits they too have earned. We know they 
will receive the benefits they have earned because their 
contributions over the years have built up a trust fund with 
over $2.6 trillion in Treasury bonds, the safest investment 
there is, sought after by investors throughout the world. Today 
it is not an exaggeration to say that Social Security, and the 
Social Security number, touch virtually every American in this 
country.
    I think we can all agree about the importance of this data 
center, the replacement project itself, and of course, 
everything it means to the American people. SSA's existing 
primary data center is nearing the end of its useful life and 
is increasingly vulnerable to catastrophic failure. Congress 
acted wisely by responding swiftly to the needs for the 
replacement center by providing full funding for construction 
and a down payment on equipping the center in the Recovery Act.
    This funding has allowed the project to get started 
immediately, which reduces the danger that SSA will be without 
full data center capability, and building the data center will 
create jobs that strengthen our economic recovery. I understand 
that there have been some delays in selecting a site for the 
new center, and I am pleased that things are once again moving 
ahead.
    I hope our witnesses will give us more information on the 
project's timeline and budget, as well as their plans for 
preventing future delays. Keeping to project timelines is 
critical to ensuring that SSA can continue to effectively serve 
workers and beneficiaries today and in the future.
    I look forward to hearing a progress report on the project 
today. Mr. Chairman, I yield back.
    Chairman JOHNSON. Thank you, Mr. Becerra.
    Chairman Denham, welcome aboard. Congratulations. Would you 
like to make a statement this morning? You are recognized.
    Mr. DENHAM. Thank you. First let me start by thanking you, 
Mr. Chairman, for holding this joint hearing on managing costs 
and mitigating delays in the building of the Social Security 
Administration's National Computer Center.
    This is the second joint hearing of our subcommittees. We 
have had to provide oversight of this important project. The 
National Computer Center is critical to supporting all of SSA's 
functions, including storing data and processing billions of 
transactions annually.
    The NCC must be reliable and operational 24/7, 365 days a 
year. However, the current data center is aging and outdated, 
lacking key redundancies and failing to meet current standards 
for data centers.
    The Recovery Act, which included the $500 million for the 
replacement of the NCC in SSA has engaged GSA in locating, 
designing, and building a new data center. Millions of 
Americans and employers rely upon the proper function of NCC 
every day.
    Unfortunately, only last week did GSA select a site, more 
than a year after the original date for site selection, and we 
know that delays often produce cost overruns. We must ensure 
this project is completed on time and within budget. We cannot 
afford any further slip in the timeline, and we cannot afford 
any added cost. The operations of this data center are too 
critical for the American people, and this project is too 
costly, to allow any more delays.
    The GSA and SSA must work together to identify risks in the 
process and either avoid or mitigate against them. I look 
forward to hearing from the witnesses today on this important 
issue. As well, I look forward to hearing what is going to 
happen with the current facility and the 260 acres that it sits 
on.
    We will also be focused on liquidating any unused, 
excessive, or surplus properties and those properties which are 
not deemed excess, surplus, or underutilized yet. We want to 
have a good track record moving forward.
    Thank you.
    Chairman JOHNSON. Thank you. I appreciate your comments.
    Ranking Member Holmes Norton, would you care to make a 
statement? You are recognized.
    Ms. NORTON. Thank you very much, Mr. Chairman. And I am 
pleased to sit with you, Mr. Chairman, and with our friends on 
the Ways and Means Social Security Subcommittee again to 
examine the process for replacing the Social Security 
Administration's current data center.
    Today's hearing is a followup to our December 15, 2009 
hearing on whether to locate the NSC on the current campus in 
Woodlawn, Maryland or to ensure that a full and open 
competitive process is used for this significant project. The 
reason our subcommittee is here is that the Subcommittee on 
Economic Development, Public Buildings, and Emergency 
Management has jurisdiction over the General Services 
Administration now.
    This project was able to begin at all because it received 
$500 million in a direct appropriation to the Social Security 
Administration, so urgent was the need. And indeed, this is the 
largest single building funded under the Recovery Act.
    GSA assists agencies in construction when they get direct 
appropriations because these agencies are not in the business 
of building or developing. And we are pleased that GSA is 
indeed deeply involved in this project. It is very, very rare 
that there is a direct appropriation to an agency rather than 
to the GSA in order to do the work for the agency because of 
its expertise.
    After our last joint hearing and at our request, GSA 
conducted a feasibility study of the Woodlawn campus that 
examined the budget and schedule risks the project might face 
staying on or leaving the Woodlawn campus. As a result of the 
feasibility study, the GSA and SSA decided on an offsite 
location--away from the campus, that is--for the NSC because 
that option posed the least risk to both budget and schedule, 
they believe.
    The existing NCC, originally constructed in the 1970s, is 
housed in an antiquated building that is very energy-
inefficient and otherwise in urgent need of replacement. A 2008 
study commissioned by the SSA concluded that the NSC is an 
aging facility with significant electrical and mechanical 
challenges, including several single points of failure, that 
could force the NSC to point down should any of these points 
fail.
    This near-emergency situation requires GSA and SSA to stay 
on schedule. Both SSA and its inspector general believe that 
the present structure is inadequate to meet the service needs 
of a 21st century computer facility, and that it poses a 
significant risk to operations. In the present structure, the 
security of 460 million records of earnings and benefits data 
for almost 57 million beneficiaries and the continuity of 
operations are both at significant risk.
    After the decision was made to locate the NSC offsite, GSA 
narrowed the available sites to two locations, a new site in 
Woodlawn, Maryland and a site in Urbana, Maryland. Last week 
SSA and GSA notified Congress of their decision to locate the 
NSC at the Urbana, Maryland site 33 miles from SSA 
headquarters.
    The SSA IG believes that the site selected for NSC is 
acceptable because of its existing infrastructure and proximity 
to highways, although he apparently, in his latest report, has 
some compunctions.
    Today we will look closely at the site selected and will 
examine whether the critical project can stay on schedule and 
how GSA and SSA will mitigate risk. Among the most obvious 
questions is why GSA and SSA selected this site out of 150 
sites that were initially considered, and why the agencies felt 
that this is the best side for the NSC.
    I look forward to learning more about this project from 
today's witnesses, and I thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you.
    Before we move on to our testimony, I want to remind our 
witnesses to limit their oral testimony to five minutes. And 
without objection, all written testimony will be made part of 
the permanent record.
    We have one panel today. Our witnesses are seated at the 
table: the Honorable Patrick O'Carroll, Inspector General of 
Social Security Administration--he made me coffee down in 
Carolina; David Foley, Deputy Commissioner of the Public 
Buildings Service, U.S. General Services Administration; and 
Kelly Croft, Deputy Commissioner, Systems, Social Security 
Administration. Thank you for being here today, all three of 
you, and we appreciate your testimony.
    Mr. O'Carroll, you may proceed for five minutes.

STATEMENT OF THE HONORABLE PATRICK P. O'CARROLL, JR., INSPECTOR 
            GENERAL, SOCIAL SECURITY ADMINISTRATION

    Mr. O'CARROLL. Good morning, Chairman Johnson, Chairman 
Denham, Congresswoman Holmes Norton, Congressman Becerra, and 
members of both subcommittees. Thank you for the invitation to 
testify today. I would like to welcome the new members of the 
112th Congress and the new members of both subcommittees.
    The replacement of SSA's National Computer Center, or NCC, 
is the agency's most critical IT investment over the next five 
years. Several factors make building a new data center 
imperative for SSA. Those factors are: increasing agency 
workloads, expanding communication and data services, and 
structural and electrical capacity issues at the current NCC.
    The NCC is more than 30 years old and might soon be unable 
to support SSA's operations, and as time passes, the risk of a 
lengthy outage at the aging data center increases. An extended 
outage at the NCC could have devastating consequences affecting 
the lives of Americans who depend on Social Security.
    Given the infrastructure concerns of the NCC, SSA has three 
main challenges to plan for over the next five years. Those 
challenges are: delivering the agency's new National Support 
Center, or NSC, on time; maintaining the current NCC with 
repairs and improvements; and further developing reliable 
backup options if an extended NCC outage occurs.
    SSA and GSA recently announced it would locate the agency's 
new NSC in Urbana, Maryland. GSA said it anticipates completing 
construction of the NSC by September 2014, and SSA expects to 
complete the IT migration of the facility by July 2016.
    For the project to be completed on time, GSA and SSA need 
to plan for contingencies that can arise during the 
construction and IT migration. Solutions to such contingencies 
should be determined in advance before the project stalls. 
These possible project delays might include: excavation 
challenges, problems with utility installations, or weather-
related issues. SSA and GSA must also ensure that builders meet 
construction due dates.
    SSA's timeline for project completion means relying on the 
current NCC for at least another five years. Therefore, SSA 
must do all it can to mitigate the risk of an extended NCC 
outage.
    Since 2009, SSA has taken many steps to address the 
structural and technical issues at the NCC. Those actions 
include: replacing electrical feeder cables and electrical 
panel breakers; replacing the NCC roof; monitoring the 
building's foundation, plumbing, and HVAC system; and 
performing annual building inspections with technical experts. 
SSA performs proper maintenance of the NCC. For the facility to 
be maintained through 2016, the same level of management and 
oversight should continue until the new NSC is built and 
operational.
    If the NCC sustains an outage before the new data center is 
completed, the agency would then rely on the Second Support 
Center, or SSC, until data and applications are recovered. The 
SSC is a co-processing center, but SSA has purchased equipment 
and is performing tests so the SSC will be able to operate as a 
fully functional backup data center within the next two years.
    Recent disaster recovery tests at the SSC show that SSA can 
recover critical operations in a little less than five days. 
Over the next year, the agency has said it plans to reduce that 
five-day period to about one day.
    SSA has also indicated it is exploring several options if 
an extended outage occurs at the NCC, including using 
generators or entering into a contract with alternate hot-site 
vendor.
    In conclusion, the sustainability and expansion of SSA's IT 
systems are critical to the agency's ability to meet its goals 
and fulfill its mission. That mission affects nearly all 
Americans every day. GSA and SSA need to present a clear 
strategic vision on how they will deliver the new data center 
on time and how to mitigate the risks of relying on the aging 
NCC.
    With long-term planning and proactive management, we should 
be able to avoid a repeat of the current situation at the NCC. 
My office will continue to work with you and SSA to make sure 
that this vitally important project is completed timely and 
efficiently.
    Thank you again for asking me to testify today, and I will 
be happy to answer questions.
    [The prepared statement of Mr. O'Carroll follows:]

    [GRAPHIC] [TIFF OMITTED] T0872A.001
    
    [GRAPHIC] [TIFF OMITTED] T0872A.002
    
    [GRAPHIC] [TIFF OMITTED] T0872A.003
    
    [GRAPHIC] [TIFF OMITTED] T0872A.004
    
    [GRAPHIC] [TIFF OMITTED] T0872A.005
    
    [GRAPHIC] [TIFF OMITTED] T0872A.006
    
    [GRAPHIC] [TIFF OMITTED] T0872A.007
    

                                 <F-dash>

    Chairman JOHNSON. Thank you, sir. I appreciate it.
    You indicated that--I know I am not supposed to ask 
questions yet, but I am going to.
    [Laughter.]
    Chairman JOHNSON. You indicated that their recovery time is 
five days. And when I was down there, Mr. Croft, you indicated 
to me you thought they could do it in two.
    Mr. CROFT. Sir, we are at four days now, and we are working 
towards one.
    Chairman JOHNSON. Okay. Thank you.
    Mr. O'CARROLL. And when we did our report on this, sir, we 
observed the testing, which is what we are reporting. That was 
when they were at four-plus days, which is why we rounded it to 
five, but from talking to the agency, they have brought that 
five down to four. But at the time, it was still almost five 
days.
    Chairman JOHNSON. Okay. Four legislative days is five.
    Mr. Foley, you are recognized for five minutes.

  STATEMENT OF DAVID FOLEY, DEPUTY COMMISSIONER OF THE PUBLIC 
    BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. FOLEY. Thank you. Good morning, Chairman Johnson, 
Chairman Denham, Ranking Members Becerra and Norton, and 
Members of the Subcommittees. I am pleased to have the 
opportunity today to discuss the considerable progress GSA has 
made in delivery of the new SSA National Support Center.
    I am glad to report the project is on budget, and GSA and 
SSA have recently reached two significant project milestones in 
the site selection and procurement for the data center. After 
an extensive due diligence process, we recently announced the 
site selection of the new Support Center at Urbana in Frederick 
County, Maryland. Last month GSA also issued the first phase of 
our design/build construction solicitation.
    GSA and SSA are working closely together to ensure we 
achieved our new project milestones while remaining on budget 
and minimizing risks to deliver an efficient, modern, and 
secure data center to support SSA in meeting their mission 
goals and providing the best value to the taxpayers.
    GSA diligently sought locations that would meet SSA's 
unique requirements for a data center. We conducted an 
extensive evaluation of potential sites within a 40-mile radius 
of Woodlawn, Maryland. We reviewed government-owned properties, 
contacted local communities, and requested expressions of 
interest through Federal Business Opportunities online.
    These efforts resulted in over 150 potential sites that 
were evaluated against specific criteria, including: site 
characteristics, location and accessibility, energy and 
utilities, security and operations, environmental impacts, 
local planning and development, land and site development 
costs, and schedule risks.
    In 2009, at these committees' request, GSA conducted a 
study to examine the possibility of locating the new data 
center at the current campus. In April of the following year, 
we delivered this study which showed that building on the SSA 
campus would present significant concerns and high risk, 
including the possible disruption of mission-critical 
operations.
    Although GSA and SSA remain committed to the presence of 
SSA at the Woodlawn campus for current mission needs and future 
expansions, the study showed that the data center would be 
better served at a new site where risk and cost would be 
minimized, and the data center could be completed more quickly.
    Upon the completion of this study and with the support of 
these committees, GSA continued to press forward with our 
review of potential sites. Our deliberative process led to a 
short list of two sites: Johnnycake Road in Baltimore County 
and Urbana in Frederick County.
    Given the importance of this project and the potential 
impacts of a site selection decision, GSA initiated an 
environmental assessment last August that we completed in 
January where the GSA solicited public comment and assessed all 
environmental impacts and advantages and disadvantages for each 
site.
    After a full and fair analysis and in coordination with 
SSA, GSA selected Urbana as the site for the new data center. 
This site will most effectively meet SSA's needs and best serve 
the interests of the taxpayers.
    Urbana not only meets SSA's requirements but offers a 
variety of benefits, including its physical site 
characteristics, available infrastructure, and favorable 
environmental conditions. Additionally, Urbana is most 
favorable in minimizing risks, cost, and schedule impacts.
    Now that we have announced the site, we are initiating the 
acquisition of the property, which we anticipate to be 
completed this June. We are also moving forward with the next 
phase of this project with the procurement for the design and 
construction of the facility.
    GSA and SSA worked collaboratively, consulting with leading 
data center experts to develop a program of requirements for a 
design/build solicitation. This POR was completed last August. 
The project will meet all of SSA's requirements and all of the 
appropriate security and IT redundancy standards for a data 
center of this type, as well as achieve a minimum of LEED Gold 
certification and the goals of the executive orders for 
sustainability and energy.
    The National Support Center project is based on an 
integrated design/build delivery method that includes a design 
firm and a constructor contractor. GSA is using a two-phase 
procurement process that evaluates the contractor's 
qualifications first to establish a short list of most highly 
qualified bidders, and then considers technical proposals and 
price in the second phase to achieve the overall best value for 
the government. This process began last month when GSA issued a 
request for qualifications, inviting contractors into the 
bidding process.
    We look forward to the next major milestones on this 
project. Phase 2 of the design/build solicitation is scheduled 
for April, site acquisition is scheduled for June, and award of 
the design/build contract is on track for next January, with 
substantial completion in September of 2014.
    GSA appreciates the opportunity to come here today to 
highlight the considerable progress we have achieved on this 
project. We look forward to continuing to work with you on the 
successful delivery of this data center.
    Chairman Johnson, Chairman Denham, Ranking Members Becerra 
and Norton, and Members of the Subcommittees, this concludes my 
statement, and I will be pleased to answer any questions you 
may have.
    [The prepared statement of Mr. Foley follows:]

    [GRAPHIC] [TIFF OMITTED] T0872A.008
    
    [GRAPHIC] [TIFF OMITTED] T0872A.009
    
    [GRAPHIC] [TIFF OMITTED] T0872A.010
    
    [GRAPHIC] [TIFF OMITTED] T0872A.011
    
    [GRAPHIC] [TIFF OMITTED] T0872A.012
    

                                 <F-dash>

    Chairman JOHNSON. Thank you, sir. We appreciate your 
comments.
    Mr. Croft, thank you for being here, and you are 
recognized. And I appreciate your help down south.
    Mr. CROFT. Thank you.
    Chairman JOHNSON. Pleasure.

  STATEMENT OF KELLY CROFT, DEPUTY COMMISSIONER FOR SYSTEMS, 
                 SOCIAL SECURITY ADMINISTRATION

    Mr. CROFT. Chairman, Ranking Members, and Members of the 
Subcommittees, thank you for the opportunity to share 
information about our data center replacement project. My name 
is Kelly Croft, and I am the Deputy Commissioner for Systems at 
Social Security Administration (SSA). I have worked at the 
agency for 28 years and have been in my current job since 
January of 2010. I am responsible for safeguarding the 
information assets of Social Security, and also delivering 
information technology (IT) services across the agency.
    At Social Security, our reliance on technology has 
dramatically evolved since I joined the agency as a front-line 
public service worker in the 1980s. In those days, I took 
retirement and disability claims on paper forms and assembled 
cases in thick paper folders.
    Today, the vast majority of our work is electronic, and we 
are extraordinarily more efficient because of it. Our claims 
process is virtually paperless. We have a number of highly 
regarded Internet applications for public use, and it is not 
unusual for us to process over 150 million computer 
transactions in a single day.
    To be blunt, if our computer systems are down, then we are 
pretty much out of business. We can still talk to people in 
person and on the telephone, and we do have contingency 
arrangements to ensure established payments go out. But we 
cannot do things like compute and pay new claims, change direct 
deposit accounts, issue Social Security cards, or even answer 
specific questions about beneficiary records. Pretty much all 
we do relies on high availability computer systems.
    Even an hour of computer outage for us is a very big deal, 
and at the massive scale we operate on, with over 50 million 
seniors and disabled people to serve, an extended outage of 
multiple days would have national implications.
    The hubs for our entire IT infrastructure are our two data 
centers, one in Maryland and one in North Carolina. Data 
centers are special buildings that require significantly more 
security and mechanical features than normal office space. For 
example, data centers should have sophisticated electrical 
systems and generators. They should also have advanced fire 
suppression systems. In addition, the equipment in data centers 
produce large quantities of heat, so they need extremely robust 
air conditioning.
    Our North Carolina center opened in 2009, and it is a 
modern, well-designed facility. On the other hand, our Maryland 
center is 30 years old, and the building is fraying. I want to 
emphasize that the computers inside our Maryland center are 
modern; but if the building fails because of a plumbing, 
heating, ventilating, and air conditioning, or electrical 
breakdown, it won't matter how capable the computers are. They 
simply won't work.
    Both of our centers function 24/7 and process a portion of 
our daily computing workload. Both also have the reserve 
capacity to run the critical systems of the agency in the event 
of a long-term outage at the sister facility. If we lost our 
Maryland data center, it would currently take us four days to 
recover critical operations in North Carolina. We are working 
to lower our recovery time to just one day.
    As bad as any days of national outage would be, we would 
also be left with just one remaining data center and no viable 
backup for that. In light of the wake-up call that came with 9/
11 and for something as important to the country as the 
delivery of Social Security services, it is crucial that we 
always have a viable backup position.
    We were relieved when Congress appropriated $500 million in 
2009 to replace our aging Maryland facility with a state-of-
the-art data center, a facility that we expect will faithfully 
serve the American public for decades, just like our old 
building has.
    We are relying on the expertise of our General Services 
Administration (GSA) colleagues to manage the process for 
acquiring land and building our replacement data center. We 
provided our requirements to GSA, and I assure you we seek only 
a safe, energy-efficient, and modern data center that will be 
sized to handle current and projected computing workloads for 
the agency.
    As a final note, we all worry about the length of time a 
large government building project like this takes. The current 
schedule will not provide me keys to the new center until 
January of 2015, and then it will take my staff up to 18 months 
to safely move all of our extensive operation out of the old 
building and into the new.
    In Social Security, we will do everything we can to ensure 
our old building continues to function while we wait. Although 
we cannot do large-scale building improvements without 
unacceptable impact to our operations, we will continue to 
undertake smart, cost-effective maintenance work.
    We strongly appreciate the support we have received from 
the Congress. I look forward to your questions, and will do my 
best to answer them. Thank you.
    [The prepared statement of Mr. Croft follows:]

    [GRAPHIC] [TIFF OMITTED] T0872A.014
    
    [GRAPHIC] [TIFF OMITTED] T0872A.015
    
    [GRAPHIC] [TIFF OMITTED] T0872A.016
    
    [GRAPHIC] [TIFF OMITTED] T0872A.017
    
    [GRAPHIC] [TIFF OMITTED] T0872A.018
    
    [GRAPHIC] [TIFF OMITTED] T0872A.019
    
    [GRAPHIC] [TIFF OMITTED] T0872A.020
    
    [GRAPHIC] [TIFF OMITTED] T0872A.021
    
    [GRAPHIC] [TIFF OMITTED] T0872A.022
    
    [GRAPHIC] [TIFF OMITTED] T0872A.023
    
    [GRAPHIC] [TIFF OMITTED] T0872A.024
    

                                 <F-dash>

    Chairman JOHNSON. Thank you, sir. I appreciate your 
testimony. I want to thank you all for your testimony. We 
appreciate you being here today.
    To make sure everyone has a chance to ask questions, I am 
going to limit my time for questions to five minutes, and ask 
Chairman Denham and the ranking members to limit their time to 
five minutes.
    Mr. Foley, Social Security is supposed to get the keys to 
the new center in January 2015, and that is a year later than 
originally planned. And the way you talk, it sounds like to me 
you are about to delay it another year. Can you talk to that 
question?
    Mr. FOLEY. We are on schedule to turn the keys over to 
them. As I mentioned, construction would be complete in 
September of 2014. There is some commissioning of the major 
building systems, as Mr. Croft, my colleague, testified.
    The data center is a complicated operation and complicated 
building system, so we have to do all the testing to make sure 
that it will work and support their operations. But we don't 
anticipate any further delays as we move forward on the 
project.
    Chairman JOHNSON. Well, why can't you move it faster? I 
mean, you know where the site is. Why are you waiting until 
June to purchase it?
    Mr. FOLEY. We are actually in the acquisition for the site 
phase. We are moving forward on the procurement for the 
construction. So we are moving forward on all of those. It will 
take us, we think, that long to actually complete the 
acquisition.
    I should say, though, that GSA is committed to looking for 
every opportunity to accelerate the project wherever possible. 
We are looking at multiple avenues to do that, whether it is 
exploring incentive clauses, potentially, in the construction 
contract.
    Once we have a contractor on board, we can clearly work 
with them to look at phasing and sequencing, delivery of long 
lead items to see where we can actually cut time out of the 
construction schedule, although I should note that as you look 
at reducing time frames, that also increases, potentially, 
project risk. So we have got to make sure we do our due 
diligence and look for those tradeoffs.
    But we do recognize the urgency of this facility, and are 
committed to looking for every way we can to accelerate.
    Chairman JOHNSON. Okay. Well, I just wonder why you are 
waiting until July to confirm the site and, you know, get it 
bought. Why is it taking you that long?
    Mr. FOLEY. Well, we are actually in the acquisition phase 
right now, so we are working to acquire----
    Chairman JOHNSON. You just think it would take that long to 
get it done?
    Mr. FOLEY. Well, there are a couple of things that have to 
happen with the site. We actually have to do some of the 
subdivision of the site. They have to bring some of the 
infrastructure in before we can actually acquire the site and 
actually transfer the deed to the Federal Government. We will 
have a purchase agreement in place prior to that.
    Chairman JOHNSON. You got a fixed price?
    Mr. FOLEY. We are in negotiations now.
    Chairman JOHNSON. Okay. Mr. O'Carroll and Mr. Croft, do you 
see how we can make up for lost time any other way?
    Mr. O'CARROLL. Well, Chairman, as you are well aware, we 
are very concerned with the parallel issues that are coming up 
with the aging NCC, and we are encouraging both SSA and GSA to 
look for any opportunity they can to trim down on the time it 
takes to do this.
    But at the same time, we don't want any corner-cutting or 
any degradation in terms of the services or the quality of the 
work. So I can assure you we have a contractor who is going to 
be taking a look and making sure that they are staying on 
schedule, and any opportunity to cut that time will be 
encouraged.
    Chairman JOHNSON. So we have a contractor already?
    Mr. O'CARROLL. We have a contractor. It is called Strategic 
e-Business Solutions, that works for us. One of our concerns 
was at the beginning, when we began our oversight, we didn't--
we have IT expertise on our audit staff, but we don't have 
experience with state-of-the-art IT, or data facility 
construction.
    So we went to Strategic e-Business, and they have a 
subcontractor called Fortress International that they are 
using, both of which have done a lot of work with computer 
centers and redundant computer centers. We are going to have 
them taking a look.
    We don't know whether we are going to put it out to them or 
to another contractor. But we will have a three-stage process 
taking a look at the next several years out.
    Chairman JOHNSON. Do we know when construction will begin?
    Mr. FOLEY. We are looking at award of the design/build 
contract next January. Depending on the design period, one of 
the advantages of design/build is it actually allows us to 
streamline the process, and they can begin some of the site 
work and construction prior to the final design.
    But until we actually have some of the preliminary design 
and know what it looks like, we don't have an exact date on 
when we will begin moving dirt on the site.
    Chairman JOHNSON. Is there any reason why we can't 
duplicate the site down in Carolina?
    Mr. FOLEY. I am not familiar with all of the specific 
characteristics, but I think Mr. Croft can talk to some of the 
differences.
    Mr. CROFT. Yes. First, sir, to your overall question about 
speeding it up and making sure it goes well, I will say we are 
committed to keeping up with David and his team. I think it is 
a really good team. They have some very good people on it, as 
do we. And we are going to keep a lot of oversight on this.
    But I would also say we want to be careful we don't 
bottleneck it by continuing to second-guess all the decisions 
that the experts have made as they have been working through 
this process.
    Regarding whether we can duplicate North Carolina, I 
believe we will end up looking something like what you saw in 
North Carolina. And, by the way, we very much appreciated your 
time to come down and look at the facility. I think the 
computer space will be about the same size.
    I think this building will have some more robust 
infrastructure to it. You may remember going down in those 
industrial rooms in the basement of the building in North 
Carolina. I think the new one will have more size and heft in 
the industrial part. But ultimately, I think it will look a lot 
like what you saw in North Carolina.
    But we are really going to rely on the expert designers and 
architects. Also, we are looking for a lot more energy 
efficiency in this building, even more so than what you saw in 
North Carolina.
    Chairman JOHNSON. Well, do they have all the equipment to 
fit the building out when we get it done?
    Mr. CROFT. Well, no. We will have to go through a very long 
process to actually move all that equipment that you saw in 
Baltimore into----
    Chairman JOHNSON. You are not going to use that old stuff, 
are you?
    Mr. CROFT. I am going to use some of it. Right. I am not 
going to use stuff that is obsolete. But some of it is very 
current and very modern, and it would cost a lot of money just 
to set aside equipment that still runs well.
    Chairman JOHNSON. Well, it is going to cost to move it, 
too. Thank you for your comments.
    You are recognized, Mr. Chairman Denham.
    Mr. DENHAM. Thank you.
    Mr. O'Carroll, the uninterrupted power supply system that 
supports the power of the current facility is over 30 years 
old. Many of the parts are no longer manufactured, and the 
service contract expires in 2012, well before the new data 
center will be completed.
    You described the importance of the UPS system in the SSA 
plans to do--what are you going to do after 2012?
    Mr. O'CARROLL. Chairman, on the technical part of it, I am 
going to defer to Mr. Croft.
    But on the oversight part of it, which is what we have been 
doing, Lockheed Martin did a study on the NCC. They identified 
the uninterrupted power supply as an issue. There is a single 
source of power going to the NCC at the moment, which is 
another risk.
    And what we are concerned with is the aging of the 
uninterrupted power supply that they have. I am told that SSA 
has engaged with a contractor that is going to be able to 
extend the life of the uninterrupted power supply that they 
have.
    And then also, we are monitoring SSA's progress in getting 
an alternate source of power, which we highly support.
    And I will let Mr. Croft give you more of the technical 
details on the uninterrupted power supply.
    Mr. CROFT. Yes, Mr. Chairman, just a general comment. We 
have done an awful lot of things to the building that have 
extended the capacity, if you will, of electrical distribution 
in particular, which was the main concern with that 2012 date 
that you referenced in your question. We have taken action to 
mitigate that. So that is not one of our major concerns at the 
moment.
    But our major concerns are things like uninterruptible 
power supply, the plumbing in the building, the HVAC in the 
building, the fire suppression. These are original to the 
building, and we will do what we can to maintain them, but the 
longer we go, the higher risk there is that they will fail.
    Mr. DENHAM. And if the system does fail, how long would the 
North Carolina system be able to fully support the entire 
process?
    Mr. CROFT. It will be able to support us indefinitely. The 
issue then, Mr. Chairman, would be that we would be left 
without a backup to that. So we would have to be scrambling to 
come up with a viable backup to North Carolina at that point.
    But the center in North Carolina is big enough now--has 
enough capacity--to be able to run the critical systems of the 
agency. And with a little bit more time, we would even be able 
to bring back our non-critical systems in the agency. So it is 
our ultimate risk mitigation.
    Mr. DENHAM. Thank you.
    And Mr. Foley, I thought you said in your testimony that 
this project would be on budget and on time?
    Mr. FOLEY. We will meet our milestones from this point 
forward. Obviously, there have been some delays, and we are 
looking to make up the time. But as far as budget, yes. We are 
still on budget.
    Mr. DENHAM. And time, even after the one-year delay? So you 
don't plan on making up the one-year delay, but you do plan on 
being on time this point forward?
    Mr. FOLEY. Yes. As far as physical construction of the 
factory, we are about 11 months behind our original schedule. 
But we believe we can make that, and we are looking for every 
opportunity to accelerate, if possible.
    Mr. DENHAM. So final completion of construction?
    Mr. FOLEY. September of 2014.
    Mr. DENHAM. And up and running completely, 100 percent 
transition?
    Mr. CROFT. We would take keys to the building--to use my 
term--in January of 2015 because, as David said, there would 
need to be testing of the building systems to make sure that 
they were ready to accept the equipment.
    And then we will transition in phases. We have said it will 
take us up to 18 months to transition the entire facility over. 
We will be running out of both facilities for some period of 
time. We will do everything we can to beat that 18-month 
period, and as we get closer, we will do a lot more precise 
planning and see how well we can do to beat 18 months.
    Mr. DENHAM. And at what point was this project started, or 
the need identified?
    Mr. CROFT. I believe it tracks back to a study that would 
have come out in early 2008.
    Mr. DENHAM. So nearly a decade, by the time it was 
identified and the new system will be up and running.
    Just a couple quick followup questions to Mr. Foley. In 
your site selection, any other existing properties that you 
identified that are existing public properties today?
    Mr. FOLEY. We did screen for available public properties. 
The Woodlawn campus, obviously, was the most logical choice, 
and we did study that. But as I mentioned in my testimony, 
because of the additional risk due to schedule, cost, and 
disruption of critical services for SSA, we decided that a new 
site would be more appropriate and would allow us to deliver 
the facility more quickly.
    Mr. DENHAM. No other public properties anywhere in the 
area?
    Mr. FOLEY. We did screen through them. I don't know the 
specific sites that we looked at.
    Mr. DENHAM. I would like to see a list of the specific 
sites and how you went about that process.
    Chairman JOHNSON. Thank you.
    Mr. Becerra, you are recognized for five minutes.
    Mr. BECERRA. Thank you, Mr. Chairman.
    And thank you to the three of you for your testimony and 
constant vigilance on this issue. I want to say that we 
appreciate that you have been very forthcoming in the constant 
efforts that we have engaged in within this committee to try to 
work hand in hand with you to move forward with this project.
    I think everyone understands how important it is to get it 
done right. We can't have any kind of failure, the way we saw 
with the IRS with its computer system, because in your case, 
people on a monthly basis depend on you being able to operate. 
So we thank you for the work you have been doing.
    I also want to mention that I know that we worked hand in 
hand with you in the whole process of site selection. We were 
somewhat concerned that you go forward with the best site, and 
so I know that especially in 2009, we were constantly asking, 
are you sure you are going to do it the right way? Are you sure 
you are going to have good sites to select from?
    So I want to thank you for having gone through the 
additional analysis that you undertook. And I suspect we 
probably feel more confident today that the site that was 
selected was the best site that we could go with. Is that the 
case? Yes?
    [A chorus of ayes.]
    Mr. BECERRA. Good. Do you have the funding that you need to 
continue to move forward? Yes? So if we could just say that for 
the record. Mr. Foley? Mr. Croft?
    Mr. FOLEY. Yes. For the construction phase, we do.
    Mr. CROFT. Yes, sir. We do.
    Mr. BECERRA. Are you still on budget? I think I heard you, 
Mr. Foley, say that you are still on budget?
    Mr. FOLEY. We are.
    Mr. BECERRA. So because we took a while on that site 
selection, that moved us back a ways, about a year, in terms of 
when you would complete the project. But in terms of the 
budget, you feel like we are still on budget?
    Mr. FOLEY. Yes.
    Mr. BECERRA. Good. And the consequences: If you didn't have 
your money, what would happen if you didn't have the money to 
move forward?
    Mr. FOLEY. I mean, obviously, if we didn't have the money 
to move forward and award construction, the project would grind 
to a halt. I think as far as the consequences on operations, I 
would leave that to Mr. Croft to discuss.
    Mr. BECERRA. Mr. Croft.
    Mr. CROFT. Well, sir, if the project came to a halt, the 
risk would just continue to grow of a significant failure with 
the current building. It is that simple. It is a risk-based 
decision. It gets worse and worse the longer we go.
    Mr. BECERRA. And I know the initial estimates of the first 
data center were that by 2013, you would max out on capacity. 
And I know you have done some things to gain some additional 
capacity there, and we now have the second site, which helps 
us.
    But even then, you need to have that redundancy so you can 
move forward. So if you have collapse at one site, while you 
could continue after, as you say, four days to get back up and 
running, you are still not running the way, operationally, we 
would want to have a center that controls so much data would 
have to.
    Mr. CROFT. Yes. In the four-day time frame, we use the term 
``critical systems.'' And these are the core systems that, in 
your districts, your field office staffs use to process the 
claims and do all the things that the public is really looking 
for.
    We have other activities and systems that are important to 
us but would not be in that four-day critical period of 
recovery. For example, we would bring up some of our management 
information systems and things like that.
    But yes, we do have the capacity in the second site now to 
be able to recover all of that.
    Mr. BECERRA. Not only would you go down, I suspect pretty 
much every one of our district offices would go down as well 
because I doubt that there are many offices that don't handle, 
as a significant part of their work, these Social Security 
claims, disability and otherwise.
    Mr. CROFT. Right. They could still interact with the 
public. If the outage was going to be for a full four days, 
they could take claims, conceivably, on paper the way we used 
to in the olden days. But then they would have to transcribe it 
back----
    Mr. BECERRA. Don't take us back to those olden days, 
please.
    Mr. CROFT. Right. I mean, they could. We wouldn't be shut 
down. They would still talk to the public. They just wouldn't 
be able to actually transact anything.
    Mr. BECERRA. Let me ask one last question, and I think, Mr. 
Foley, you probably can answer this best. Given the extensive 
work that was done in selecting the site, do you anticipate any 
protests at this stage on the selection itself?
    Mr. FOLEY. I believe we learned last night that there has 
been a GAO protest filed. I think the important part for us to 
focus on is that the site selection is not on the critical path 
at this point for the procurement. We are moving forward with a 
two-phase source selection, and so the first phase is all about 
finding qualified contractors who can design and build this 
facility. So we can narrow that down to the most qualified 
candidates.
    So we do anticipate--and I believe there has been a protest 
filed. Based on the process that we used, we are confident we 
will prevail on that protest and that it won't impact the 
schedule at this point.
    Mr. BECERRA. Do you mind, please, keeping this committee 
informed about the progress on that protest and any protests 
that may come along the pike?
    Mr. FOLEY. Absolutely.
    Mr. BECERRA. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman JOHNSON. Thank you, sir.
    Ms. Holmes Norton, would you care to comment?
    Ms. NORTON. Thank you, Mr. Chairman.
    Last thing we want is more delay on this project. But 
remembering that what concerned both subcommittees before was 
site selection, I am concerned with the report that we got just 
yesterday from the inspector general and with reconciling what 
is in that report with the testimony of Social Security; 
specifically, the change in the criteria used in site 
selection, which you, Mr. O'Carroll, indicate is somewhat 
problematic.
    For example, the three finalists, three final sites, have 
one, two, and even three secondary criteria, while several of 
the unsolicited sites had only one documented secondary 
criteria conflict. Now, you changed, apparently--the team 
changed some mandatory to secondary.
    Now, to keep us from talking jargon, Mr. O'Carroll, Mr. 
Croft, explain what secondary and mandatory are, and why the 
team in the process of selection would change from one category 
to another, or recategorize in the way you did.
    Mr. O'CARROLL. Congresswoman, I will take the first crack 
at it before I turn it over to Mr. Croft.
    There are a couple issues, and you said that probably the 
biggest one is documentation. And our concern, as we have been 
monitoring this project throughout, is with a couple things.
    One, we don't sit at the same table with GSA and SSA as 
these decisions are being made. And that is probably good for 
the sake of independence. We are not part of the process. We 
are just evaluating it.
    One of the biggest concerns with regard to evaluating it is 
the timely receipt of the information. And then also, the 
documentation that we get. And that is where a couple of our 
issues have come up--the documentation on the decision-making. 
Many times the documentation has been lacking.
    And another issue is that we try to be ahead of the curve. 
One of the biggest complaints about inspectors general is what 
they call the ``gotcha'' mentality, that we wait until things 
go wrong and then we point it out. What we are trying to do 
here is point out issues before they go wrong.
    We have had a couple instances where by the time we got the 
information, a decision has already been made. And that is what 
happened with this report--the decisions had been made. The 
site had been selected. And subsequent to the decision, we 
issued our report where we flagged the issue. A year ago there 
were 14 different sites that were being evaluated, and they 
were being discarded based on different secondary criteria and 
primary criteria that were being considered. They kept 
narrowing it down. And then it got down to the three sites.
    And what our concern was, was there any one of the ones 
that were discarded beforehand that would have been better than 
the three that were selected? And that is what the substance of 
our report was.
    Ms. NORTON. Well, it raises a question, and maybe Mr. Croft 
and Mr. Foley can make us understand it. It raises some 
question when you change the criteria. You know, you change the 
criteria in the middle of the game and you can get any site you 
want.
    So changing criteria is very bothersome. And I would like 
to know why the criteria for site selection would change in the 
midst of site selection. I mean, that is pure and simple what I 
am interested in.
    Mr. FOLEY. I will answer first because I think a lot of the 
site selection process falls under GSA.
    Ms. NORTON. Yes.
    Mr. FOLEY. As far as changing the primary and secondary 
criteria for the site selection, it was done very early on the 
process----
    Ms. NORTON. So give us examples of primary and of 
secondary.
    Mr. FOLEY. Primary are sort of the critical go/no-go. So 
does the site have the appropriate infrastructure? Can it 
provide the utilities to the site? All of those sorts of 
things. Secondary criteria are things like access to the site 
and other criteria that are nice to have but not critical to 
the operation of the factory.
    And so as we were beginning the process and before we began 
evaluating any of the offers, we recognized that some of the 
criteria that we had as primary criteria were narrowing the 
number of available sites. We wanted to maximize competition, 
and we looked for other ways to mitigate some of the risks that 
were raised by some of these primary criteria.
    So before we did any evaluation of any of the sites, we did 
change one of the criteria to a secondary. But that was really 
done so we that could maximize the number of available sites 
and the competition and find the most appropriate site with the 
least amount of risk so we could deliver it as quickly as 
possible for SSA.
    Ms. NORTON. Generally, when GSA builds--am I out of time?
    Chairman JOHNSON. You can go ahead and ask one more.
    Ms. NORTON. I will just ask this remaining question, then, 
and I thank you for your indulgence, Mr. Chairman.
    Generally, of course, when GSA puts out an RFP, one of the 
criteria is proximity to mass transportation. Is there any 
proximity to mass transportation? Do these workers have 
proximity to mass transportation where they are now located? 
How will they get to the site?
    Mr. FOLEY. I would defer to Mr. Croft on the current mass 
transportation. We did evaluate all of the sites. The data 
center is a little bit of a unique facility in that the density 
and utilization and number of employees is less than, say, a 
typical office building that GSA----
    Ms. NORTON. How many employees?
    Mr. CROFT. In the new facility, my staff would be about 79, 
and then there would be additional facility staff, guards, 
things like that. And remember, these are three shift, 24/7 
operations.
    Chairman JOHNSON. Tell you what, the gentlelady's time is 
expired. Can you submit that answer in writing?
    Mr. FOLEY. Certainly.
    Ms. NORTON. Thank you, Mr. Chairman.
    The projected number of employees for rotating shifts at 
the national Support Center (NSC) to provide coverage 24 hours 
a day, 7 days a week, and 365 days a year is 208. Of these, 97 
will be Federal employees and 111 will be contractors.
    Chairman JOHNSON. Mr. Brady, you are recognized.
    Mr. BRADY. Thank you, Chairman Johnson, Chairman Denham. 
Thank you for hosting this hearing. Nice to see you again, Mr. 
O'Carroll. Appreciate it. Look forward to working with you 
again this session. Mr. Foley, Mr. Croft, thanks for being 
here.
    You know, our seniors just depend upon getting their checks 
on time and accurately, plus Social Security and the data you 
have play a critical role with other federal, state, and local 
agencies. So this is a critical issue.
    When natural disasters in California collapsed roads and 
bridges, when the Minneapolis bridge, an I-35 construction 
flaw, collapsed, the Federal Government worked with remarkable 
speed, knowing that truly they didn't have an option and they 
needed to move quickly.
    I am not saying we have a natural disaster on our hands. 
But obviously, we are on borrowed time with the aging NCC 
system as it is today. Mr. Foley and Mr. Croft, why can't we 
apply those principles to getting this project back at least to 
its original timetable in moving forward just to ensure that we 
have bought ourselves again more time to prevent anything from 
happening that really would have pretty critical impacts? Mr. 
Foley?
    Mr. FOLEY. Certainly. As I said, we are committed to 
looking for every avenue to accelerate, and we are exploring 
all those. I think we have an aggressive schedule for the 
delivery of the data center on the construction side. And, you 
know, as with any project, there are clearly components of risk 
as we move forward through the procurement phase and through 
the construction phase.
    But we are taking every step we can to mitigate those. So 
on the procurement side, we have detailed criteria, and we have 
a well-established process for the procurement, and we are 
confident that we can move through that quickly without any 
delays.
    On the construction side, the two components, typically, 
where you see opportunities for delay are when you have an 
issue with the contractor. And so by going for the two-phase 
source selection where we get only the most qualified 
contractors, we think we are mitigating that risk as we move 
forward. The second phase or the second place where you often 
see delay is in changes in requirements, and we have worked 
extremely closely with Social Security to ensure that we have a 
well-developed program of requirements.
    And so I think we are--we don't anticipate any further 
delays. And as I said, we are looking at all avenues we can to 
accelerate on the construction side, and I think on the 
migration side as well.
    Mr. BRADY. On the construction side, of the elements that 
go into, both acquiring the site, designing and building, 
construction, as you said--and obviously, Mr. Croft, you have 
got the installation as well--what are the greatest risk 
factors for further delay in your experience with other 
projects? Where do we see the most risk in something slowing us 
down further?
    Mr. FOLEY. I mean, I think I mentioned them previously. The 
two places where we see risk are during the procurement, where 
you have a risk, potentially, for a protest among the 
unsuccessful bidders----
    Mr. BRADY. And how much could that delay it?
    Mr. FOLEY. I think we are hopeful that we can move through 
that process fairly quickly. You know, it could be a matter of 
months to just a matter of weeks. We know we have got a good 
process in place, so we hope to keep that to a minimum and we 
hope we wouldn't have any protest on the award.
    On the construction side, the biggest risk is typically 
where you have changes of requirements. So as you get through 
the design and into construction----
    Mr. BRADY. And does that hinge, really, on the coordination 
between Social Security and GSA?
    Mr. FOLEY. Absolutely. And that is where our close working 
relationship has proved beneficial. We have a well-detailed 
program of requirements, and we are working in close 
coordination to make sure that we don't have any delays as we 
move through the construction side.
    Mr. CROFT. Mr. Brady, I echo what David said. We have 
invested massive amounts of time working with the GSA team to 
make sure that that program is complete and will not be an 
impediment to this project.
    So we are very, very much in the middle of this, and we 
will commit to keeping up with our colleagues from GSA.
    Mr. BRADY. Thank you. What is the degree of certainty that 
we will get this building to Social Security in January 2015? 
And what is the degree of certainty we will finish the IT and 
systems 18 months later?
    Mr. Foley, is it 100 percent? Ninety percent? Eighty 
percent? Seventy percent? Your experience with other projects, 
what should we expect?
    Mr. FOLEY. Based on my experience, we do have an aggressive 
schedule, in part because we recognize the criticality of this. 
I think because of all the coordination and in part because of 
some of the environmental work and things that we need to know 
a little extra time up front, we are fairly confident that we 
can certainly deliver within the schedule we currently have and 
because of the risk mitigation that I mentioned up front.
    Mr. BRADY. How comfortable?
    Mr. FOLEY. We are very comfortable we could deliver that.
    Mr. BRADY. Eighty percent comfortable? A hundred percent 
comfortable?
    Mr. FOLEY. I would say at least 80 percent and more.
    Mr. BRADY. I knew you didn't want to give that number.
    [Laughter.]
    Mr. BRADY. But for our own sake, I wanted to know just what 
this comfort level was.
    Mr. FOLEY. I had to try.
    Mr. BRADY. I am over time, Mr. Chairman. Do you want to 
answer quickly, Mr. Croft?
    Chairman JOHNSON. Thank you. Go ahead.
    Mr. CROFT. Well, for IT migration, I am extremely 
comfortable that we can make it within the 18-month time frame. 
And I am not a betting person, but I would bet we will 
substantially beat it.
    Chairman JOHNSON. Well, I am concerned that you are moving 
some of the equipment from the old facility to the new one, and 
I don't know how you are going to make that transition on time. 
I hope you can.
    Mr. Stark, do you care to question?
    Mr. STARK. Not at this point, Mr. Chairman.
    Chairman JOHNSON. Thank you.
    Mr. Paulsen, do you care to----
    Mr. PAULSEN. Thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you.
    Mr. PAULSEN. I just have maybe a couple of questions. Part 
of it has been the reassurance, obviously, of the members of 
this committee, and I am just learning about the timelines that 
are around the data centers that are out there. But let me just 
understand, maybe, some more of the impact because I am 
learning exactly all about the Social Security and the data 
that is kept there.
    But Mr. Croft, knowing that what you are doing right now, 
you are doing everything possible, right, that you can to 
prevent the aging NCC from failing, if it were to fail this 
year--let's just say it failed. And I know there is a four-day 
backup plan that comes up. And I visit my local Social Security 
office the next day.
    I mean, what would I find if I went in there the next day 
after a failure? Would I be able to file a claim? Would I be 
able to change the bank to where my checks get sent? Would I be 
able to do that? Would I be able to file an appeal that day if 
a claim was denied, for instance, or would it take a long 
period of time? Just help me sort out what might happen.
    Mr. CROFT. Yes, sir. I appreciate the question.
    First, if we had a situation like that, one of the first 
things we would be doing, of course, is communicating, not only 
to our own management team and workforce but also to the 
communities. We would be sending out information about the 
likely outage and the impact on operations. And for people that 
can wait to come file a claim or do things with us, we would be 
encouraging them to wait until we are back up and operational.
    If you came into the office, though, and our systems were 
down, you could file a claim. We couldn't process it, though. 
You could file a claim on paper. We might take information from 
you to protect your filing date to make sure you don't lose any 
benefits and so forth.
    We could take information from you related to changing a 
direct deposit, but we couldn't actually process that, either. 
We would wait until the system was up, and then we would have 
to work to key that information in and process it at that time.
    So we would be there. We would be able to talk to people. 
We could take information from people. We could actually take 
paper claims and things like that. But we could not process 
them until the system was back up.
    Mr. PAULSEN. So it sounds like essentially you are going to 
have a backlog occur until everything starts up again?
    Mr. CROFT. A tremendous backlog would build up very 
quickly.
    Chairman JOHNSON. Mr. Croft, can I interrupt you a minute? 
I thought you told me that a certain percentage of the system 
was running in Carolina now.
    Mr. CROFT. It is. That is correct.
    Chairman JOHNSON. And those would not be affected, would 
they?
    Mr. CROFT. Yes. The things that are in Carolina would not 
be affected. That is correct, sir.
    Chairman JOHNSON. So take the State of Texas, for example, 
which you are doing down there. If the main center went down, 
Texas would not be affected. Is that true?
    Mr. CROFT. What we showed you there was the printing of 
Social Security cards for Texas. We could still print Social 
Security cards if we had the new information coming in. The 
main thing that is in North Carolina is all the medical 
evidence associated with our disability process, which is a 
huge growth area for us. That would still be up and 
operational.
    But a lot of the online types of system and the claims 
systems that the question referred to, they are dependent on 
the National Computer Center at this time. So they would be 
down under the scenario that the question----
    Chairman JOHNSON. For four days, according to you, five 
according to him?
    Mr. CROFT. Four days to me, and working towards one.
    Chairman JOHNSON. Thank you.
    Mr. PAULSEN. Mr. Croft, let me just follow up, too. So if I 
am a business owner and I am using the E-Verify system, 
participating in that--that is the voluntary program that 
allows me to verify work authorization of my new hires--will I 
be able to verify new hires during that time frame?
    Mr. CROFT. Yes, you will. That is one of the redundant 
systems between the two data centers. If it happened tomorrow, 
it would require some additional work from our colleagues at 
the Department of Homeland Security (DHS) to point their system 
to North Carolina. But we are all set up and ready to do that.
    Mr. PAULSEN. And if I was going to call on like the 800 
number, for instance, would I get an answer on the phone? Would 
I be able to conduct business or be a part of that?
    Mr. CROFT. Yes. Yes, sir. Our phones would work, but our 
staff would have limited ability other than to talk to you and 
take information from you. For example, they would not be able 
to pull up your master beneficiary record to answer questions 
with specificity about your claims or your benefits.
    Mr. PAULSEN. And maybe just I will close here. But let me 
ask you this, too. With the timelines, and you say you are 
reasonably sure that you can meet the current timelines even 
though we have already been delayed, but if everything is 
completed with the new center and there was an outage, is it 
going to be the same four-day backup? Or is it going to be we 
are going to have a backup now and we are not going to have 
that time frame to meet an emergency if there was an outage?
    Mr. CROFT. Yes. We are at a four-day recovery time now, and 
we have an active project, irrespective of the replacement data 
center project, to drive that down to one day. And we will make 
that, as we have said, by the end of fiscal year (FY) 2012. And 
I believe we will actually beat that one as well, Mr. Johnson.
    But we will be driving that down. So we will be at a one 
day recovery time if either of our centers fail.
    Mr. PAULSEN. Thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you.
    Ms. Berkley, do you care to question?
    Ms. BERKLEY. I do indeed, and thank you very much for 
holding this hearing. And thank you, gentlemen, for being here.
    We are in the process of building a VA medical center in my 
congressional district. There are three buildings 147 acres, 
and it is the first new construction in the VA in 20 years. It 
is a massive undertaking. So I very much appreciate what you 
are doing and how you are doing it.
    One of the questions that many people in my community would 
ask when we got the timeline on how long it would take to build 
these facilities was if we could build a 5,000-room hotel in 
Las Vegas in 18 months, how is it that this is going to take so 
long?
    But now that it is nearing completion and I see what went 
into creating these buildings, I understood why it took as long 
as it did. So I fully appreciate your need to do your due 
diligence and produce a building that is going to not only be 
functional and safe, but will be with us for many decades to 
come.
    I also realize how challenging site selection is because I 
grew up in my congressional district. I know every inch of it. 
And I had many suggestions for the appropriate site for this VA 
medical center. And as each one of my suggestions was shot 
down, I also came to appreciate that even though it was not 
even on my radar screen, the site that we chose was perfect for 
the function of these buildings. And we are going to be 
creating a whole new city within a city once this is up. So I 
want to thank you for doing your work.
    We were able to build this VA center with a $600-million 
earmark. And I am a great proponent of earmarks, although they 
seem to have fallen out of fashion lately. But what I was 
astounded is when we were talking about it being on time and 
being on budget, and I thought that was just great.
    A few years after the start, I came to realize that there 
was another $100 million that was needed for equipment and 
furniture and training and hiring, because we are going to be 
hiring a thousand people.
    Do you need additional resources from the Federal 
Government? Do we have to appropriate it? Is it now up to your 
Social Security Administrator to come and make the request? 
Where are we in that process?
    Mr. CROFT. Yes. Thank you. Out of the $500 million that 
have been appropriated for this project, $100 million is to be 
used as the down payment, if you will, for the actual 
outfitting of the building with IT, the transition of the IT, 
and so forth.
    And at the time that this was done, we estimated that it 
could cost upwards of $350 million altogether to do a full 
transition from the old building to the new. So what we will be 
doing is making requests as part of our budget process.
    I believe you will start seeing requests from us, based on 
current timeline, in FY 2013/2014/2015, possibly 2016 as well, 
to cover the additional costs associated with transitioning all 
of the IT from the old building into the new and establishing 
that as a fully functioning new data center.
    Ms. BERKLEY. And I am glad you brought that up because 
there have been a couple of questions asked about the 
effectiveness and the cost-effectiveness of transferring 
existing equipment from the old building to the new.
    I am sure you have done a cost study on this, and is it 
less expensive to do this than purchase new?
    Mr. CROFT. It will be for equipment that still has a lot 
of----
    Ms. BERKLEY. Life?
    Mr. CROFT. Correct. That is right. And we will be doing 
much, much more precise planning, actually starting later this 
year and getting into next year, as we actually are getting 
closer and closer to being able to take over this facility.
    We will develop a master plan. We will start working 
through our budget cycles. We buy a lot of things, a lot of 
hardware, a lot of IT equipment anyway. What we're trying to do 
is time our regular refreshments of equipment.
    If we can extend some of our equipment a little bit longer 
in the old building so that we can just ride our normal budget 
cycles for equipment that we were going to replace anyway and 
have it go directly into the new facility, that will be a way 
for us to cut down on that cost and make it go smoother.
    Ms. BERKLEY. Thank you.
    Mr. O'Carroll, in my final moments, seconds, you know the 
situation in my district, with the unprecedented growth and the 
amount of backlog we have and the lines that we have. If we 
roll back our budgets to 2008 numbers, what will that do to the 
people in my congressional district that depend on Social 
Security?
    Mr. O'CARROLL. Congresswoman, I think that is an issue that 
Social Security is looking very hard at--what is going to 
happen to customer service. When you take a look at the last 
two years, the growth that SSA has had, the expectations now of 
the public are higher because backlogs have dropped, service 
has improved. If there are going to be budget cuts obviously it 
is going to have an effect on customer service.
    One other thing we are always very concerned with is 
stewardship. One of my concerns is that stewardship not 
decrease. SSA should do its due diligence to make sure that the 
right people are getting the right benefits, and that that 
doesn't suffer, because oftentimes stewardship suffers whenever 
customer service gets higher priority.
    Ms. BERKLEY. So penny wise and pound foolish?
    Mr. O'CARROLL. Yes.
    Chairman JOHNSON. The gentlelady's time has expired. Thank 
you.
    Mr. Smith, you are recognized.
    Mr. SMITH. Thank you, Mr. Chairman, and thank you to the 
panel for sharing your expertise and insights here. It has been 
interesting to listen to this now that the 2008 spending levels 
have been injected into this hearing and the stimulus funds and 
so forth.
    But I can't help but think that the whole process--and I am 
fairly new to this project--but looking at the delays, and then 
the extra funds being directed to that and maybe not even 
speeding things up--and I don't want to go there necessarily. I 
am curious as to how the process could be streamlined in the 
future. I have talked to private contractors who say that 
government projects tend to take a long time, therefore cost 
more money, or vice versa.
    And so if you could speak to something that could be done, 
perhaps--and maybe not even being able to respond to that 
today, but for the record in the future--how can we get to the 
bottom of some of these things, the delays? And I am not 
faulting any one particular person or agency.
    It is just that there seems to be so much placed into the 
decision that it becomes so burdensome. Then it is delayed. It 
is more expensive. Service perhaps could suffer, and efficiency 
overall is lost.
    Can any of you speak to that in a brief moment?
    Mr. FOLEY. I will take the first shot at it. I think there 
are unique requirements to building a federal facility. In 
particular, the data center is a complicated facility unlike a 
traditional or typical office building, even the ones that GSA 
builds for many of our other customer agencies.
    So the timeline on this project is longer just simply 
because of the type of facility. When you are building a $400- 
or $500-million project, including equipment and all the 
technology that has got to go into there, the building 
mechanical systems are much more complicated. The phasing and 
sequencing is much more complicated. And so it does take a 
longer period of time.
    There are also requirements that the Federal Government has 
for additional security--redundancy on the systems, which I 
defer to my colleague at Social Security to discuss a little 
more--but that are more complicated, require more due diligence 
than perhaps a typical private sector facility might go 
through. So I don't know if you----
    Mr. CROFT. I appreciate your question. I am not an expert 
on this process. I do find it daunting, and I really respect my 
colleagues for the way they maneuver through it. It is an 
extensive process, and I don't have words of wisdom about it, 
to be honest, Congressman.
    Mr. O'CARROLL. Mr. Smith, I am also in that same position--
what we are doing is monitoring. What we are trying to do with 
our monitoring process is not to impede, not to delay the 
project, and do everything that we can to keep it on schedule.
    But we have the same role of oversight. So I guess the best 
thing I can say, Mr. Smith, is I can assure you that the 
oversight role isn't going to be a lag indicator on the future 
of this project.
    Mr. SMITH. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman JOHNSON. Just know that I understand duplication 
in effort in these kind of buildings. And there is a lot of 
technology going in there, and backup power, backup generators, 
backup this, backup that. And it is great that you are 
considering all those things.
    Mr. Rangel, do you care to question?
    Mr. RANGEL. Mr. Chairman, thank you, and Congressman Norton 
for having this hearing. I only want----
    Chairman JOHNSON. Microphone.
    Mr. RANGEL. I only want to take advantage of this moment to 
thank the panel of the great job that they are doing for 
hundreds of millions of Americans that we don't say thank you 
enough. But their lives and their families have been affected.
    And I think the Social Security Act is one of the highest 
moments of our nation and the Congress. And continue your good 
work, and count on our support.
    Thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you, sir. You lost your words, huh? 
You can talk longer if you want to.
    Mr. RANGEL. No, no. I really think, when you are hearing 
things positive, progress is being made, you don't go 
backwards. You just thank them and move on.
    Chairman JOHNSON. They do do good work in my view.
    Mr. Berg, you are recognized.
    Mr. BERG. Thank you, Mr. Chairman. Again, I want to thank 
you for all the work you put into this. In my real life I am 
involved in commercial real estate, and so I am somewhat 
familiar with the private sector.
    And I just had a couple of just big picture questions. How 
big is the facility, and what is our cost per square foot in 
the new facility?
    Mr. CROFT. I believe the building will be approximately 
400,000 gross square feet.
    Mr. FOLEY. I think it is, 400,000 square feet. And I think 
the overall total construction cost, including management and 
inspection and the design services, is about $381 million. So I 
don't have my calculator here to do the quick math, but we can 
certainly provide the estimated construction cost per square 
feet for you.
    Mr. BERG. Well, obviously, one of the things that is of 
concern to everyone here is what might be in jeopardy if we 
have a crash in the current facility, and really what is going 
on.
    The other thing that I see is obviously our economy is in a 
slump now. And we look at this project and we say, when will 
the bulk of the jobs actually be out there receiving paychecks, 
and how can we speed that up?
    And I am not going to go through all the timetable and 
everything you are doing because again, as you look at that, we 
can argue about that and talk about that. But in my 
experience--and I am just going to kind of lay out an analogy. 
I don't know if this is true or not.
    But I think when it comes to government projects, there is 
kind of a private sector construction world out there, and 
there is kind of a way they do things, whether it is a data 
center or office building or warehouse, that they have 
timetables and what they go through.
    And to some degree, it seems like through the government, 
when we are doing construction projects, we are saying, okay. 
We don't really care about how the industry normally does this. 
We are the government, and here is how we do this, and we are 
so concerned about having everything accounted for and 
everything competed for that we end up, in my opinion, 
sometimes taking twice as long for a construction project that 
ultimately costs us more because of the delays.
    My other concern is in our effort to make everything fair 
for every contractor, we end up not having that many 
contractors compete because they are like, I don't want to do 
all that paperwork and spend hundreds of thousands of dollars 
to get in the game when there is only a 10 percent chance that 
I will get it. Instead of doing that, I am just going to do my 
normal work.
    So maybe just--again, I am kind of stepping back. And not 
to pick on this project, but if we were going to kind of 
rethink how we do major construction projects like this in a 
way that would be, again, two years rather than five years, I 
am asking for ideas or what you might think could be done 
differently from out standpoint to deliver, again, the same 
results, but faster.
    Mr. FOLEY. Sure. I think that first I should note we have 
brought in expertise from the private sector, from folks who 
build data centers all the time, because this is a unique, 
highly complicated project.
    So we are using our expertise, SSA's expertise of their 
requirements, and we have brought in consultants who are 
experts in terms of data centers to help with that, to make 
sure that we aren't adding things to the process and help make 
sure that we do that.
    As far as your concern about how do we make sure that we 
get competition because of the process and all of that, that is 
one of the benefits of our two-step source selection, where we 
don't require as much detail up front before we narrow the list 
down.
    So you get to a short list of folks, so they know I am not 
one of 50 competing. I think, based on our experience with 
other Recovery Act projects, we are confident that we are going 
to get good competition on this project.
    And so I think there are differences between private sector 
and government, but we are always looking for opportunities and 
ways that we can streamline, and do it in the most efficient 
manner. But we do have certain rules, regulations, and a 
certain duty as the Federal Government to make sure that there 
is a fair opportunity for all entities to compete in this.
    Mr. BERG. Mr. Chairman, let me reask that question. First 
of all, I am not asking you to defend anything.
    Mr. FOLEY. Okay.
    Mr. BERG. I trust that you are making a good decision. I 
trust that you have great contractors. I understand the 
process, and someone can have a dispute or a protest and it 
screws things up.
    My question to you is, again, on the big picture, if we 
said this had to be done in two years rather than five years, 
is there anything that you can think of that says, you know, we 
could streamline this by removing some of these obligations or 
requirements? That is my question to you.
    Mr. FOLEY. I mean, I think the longest parts in the process 
are through the environmental phase, which you are well aware 
of, you know, through any private development as well. Through 
the procurement, there are additional rules and regulations 
that do take a little bit longer for the government because we 
do have to have full and open competition as opposed to being 
able to go out to two or three contractors and say to do that. 
And so that does add time to the process.
    As far as construction goes, we are hiring a private sector 
contractor to build the building, and so I hope that our actual 
construction time frame and the process we are using, design/
build, is--it is common practice in private sector real estate. 
And so I think that portion of the process is fairly similar. 
So I think it really is on the front end where it is a little 
bit different.
    Mr. BERG. Thank you. Just one followup? Or am I out of 
time?
    Chairman JOHNSON. Go ahead. What have you got?
    Mr. BERG. My question is, what is the plan for the property 
that you are going to be moving out of?
    Mr. FOLEY. Sure.
    Mr. BERG. And that may have been already addressed. If so, 
I apologize; you don't need to respond to that. But we don't 
want to wait.
    Mr. CROFT. No. It hasn't been asked, sir. We are going 
through a master planning process on the campus. The building 
will stay in use. It probably will need to have some 
renovations once the IT is out of it. Again, the plumbing and 
all that stuff is original to the building.
    My speculation would be it will be an office building for 
Social Security workers in Baltimore.
    Chairman JOHNSON. Yes. That is another issue we need to 
look at. Thank you for bringing it up. Your time is expired.
    I am going to allow Mr. Denham, the chairman, to ask one 
more question.
    Mr. DENHAM. Thank you, Mr. Chairman. Actually, my question 
is the same as Mr. Berg's question, which I don't think was 
fully answered. I understand that there is going to be tenant 
improvements on the facility, on the building itself. But this 
is a 260-acre piece of property, is it not?
    Mr. FOLEY. I believe that is correct. Yes.
    Mr. DENHAM. What are we going to do with the rest of that 
property?
    Mr. FOLEY. The Woodlawn campus has multiple SSA facilities 
on it, you know, as far as the operations there. But we have an 
operations center that we have just recently completed a major 
renovation on. There is the Altmeyer Building as well.
    And so there are multiple other uses for the SSA 
headquarters. We are utilizing the site in a multiple of 
capacities. We are, as Mr. Croft said, in the master planning--
--
    Mr. DENHAM. Is it 100 percent utilized?
    Mr. FOLEY. I believe so, yes.
    Mr. DENHAM. 260 acres, no vacant land out there?
    Mr. FOLEY. Oh, there is additional land.
    Mr. DENHAM. So it is not 100 percent utilized?
    Mr. FOLEY. The buildings themselves are, yes. But there is 
additional land.
    Mr. DENHAM. And what are we doing with the land?
    Mr. FOLEY. Right now, I mean, it is just buffer area around 
the campus.
    Mr. DENHAM. Could it be utilized for something other than 
buffer?
    Mr. FOLEY. As a part of the study, one of the things we did 
look at was the ability to build on some of these portions. The 
topography and other things create some challenges. But as a 
part of the master plan, we will be looking at how we can 
better utilize the facility and the possibility for future 
growth and expansion of SSA at the Woodlawn campus.
    Mr. DENHAM. Are there houses on that property?
    Mr. FOLEY. I believe there are.
    Mr. DENHAM. Individual dwellings?
    Mr. FOLEY. I believe there are contiguous----
    Mr. DENHAM. I believe there are, too. Any reason why we 
couldn't utilize the rest of the 260 acres to develop that 
area, put houses on there, and sell it off to some private 
developer that may be able to provide housing for that 
community?
    Mr. CROFT. Well, part of the issue, Congressman--and we 
would love to have you come out to the campus if you want to 
look at it.
    Mr. DENHAM. I would love to visit.
    Mr. CROFT. A lot of it is parking, parking lots and so on.
    Mr. DENHAM. 260 acres of parking lots?
    Mr. CROFT. But there is also quite a lot of woodland area. 
But a lot of that has been buffer around the computer center, 
the National Computer Center.
    Mr. DENHAM. But we are now moving the computer center. 
Correct? So we would not need the large buffer zone, and we 
would be able to develop that property, sell the property off. 
I am curious of what the timeline is to sell the property and 
to better utilize the existing facilities.
    It is also my understanding that a number of the facilities 
on there we lease from private individuals for SSA. Correct?
    Mr. CROFT. Not on the campus, no.
    Mr. DENHAM. Obviously, which is even a bigger problem. We 
are leasing property outside of the campus even though we have 
got 260 vacant acres there. We are leasing property. Are we 
going to now move those individuals into the location that we 
are moving out of once the tenant improvements are done?
    Mr. FOLEY. That is part of the master planning process. So 
we are looking at the best way to accommodate the overall needs 
on the site.
    Mr. DENHAM. I would like to take a look at the entire plan 
and have that available to our committee. My assumption is that 
we are not going to fully utilize the 260 acres, so I would 
like to see what the opportunities would be to sell off that 
property and what it could be used for.
    And then finally, I am assuming----
    Chairman JOHNSON. I would like for you to respond to both 
committees in that regard, please.
    Mr. DENHAM. Thank you.
    Contingency on the overall project, I assume, is 10 percent 
contingency?
    Mr. FOLEY. I believe so, yes.
    Mr. DENHAM. So $50 million, there could be an opportunity 
to reprogram $50 million, assuming you come in on budget.
    Mr. FOLEY. At the end of the process, yes.
    Mr. DENHAM. Just as a statement, it is my understanding 
that in the past, when money is reprogrammed, it does not 
always go back through this committee, even though you have the 
obligation to bring it before this committee. This committee 
will make sure that we follow up on every project to make sure 
that every contingency comes through this committee as well as 
Appropriations.
    Thank you for my time.
    Chairman JOHNSON. Thank you, sir. I appreciate the 
question.
    And thank you all for your presence here today and your 
comments. Thank you all, and the subcommittees will continue to 
monitor your progress, both of us, to make sure the project is 
done right, within budget, and completed on time, if not ahead 
of time.
    I appreciate all of my members who joined us. At this time, 
the committee stands adjourned.
    [Whereupon, at 11:34 a.m., the subcommittees were 
adjourned.]
    [Questions for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T0872A.025
    
    [GRAPHIC] [TIFF OMITTED] T0872A.026
    
    [GRAPHIC] [TIFF OMITTED] T0872A.027
    

                                 <F-dash>

[GRAPHIC] [TIFF OMITTED] T0872A.028

[GRAPHIC] [TIFF OMITTED] T0872A.029

[GRAPHIC] [TIFF OMITTED] T0872A.030

[GRAPHIC] [TIFF OMITTED] T0872A.031

[GRAPHIC] [TIFF OMITTED] T0872A.032

[GRAPHIC] [TIFF OMITTED] T0872A.033

[GRAPHIC] [TIFF OMITTED] T0872A.034

[GRAPHIC] [TIFF OMITTED] T0872A.035

[GRAPHIC] [TIFF OMITTED] T0872A.036

[GRAPHIC] [TIFF OMITTED] T0872A.037

[GRAPHIC] [TIFF OMITTED] T0872A.038

[GRAPHIC] [TIFF OMITTED] T0872A.039

[GRAPHIC] [TIFF OMITTED] T0872A.040

[GRAPHIC] [TIFF OMITTED] T0872A.041

[GRAPHIC] [TIFF OMITTED] T0872A.042


                                 <F-dash>

[GRAPHIC] [TIFF OMITTED] T0872A.043

[GRAPHIC] [TIFF OMITTED] T0872A.044

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
